    :', ' ~ :':.,   ::';. ~""        . ...... ...,..     .. ~ .-: ~ . ~:; ~~...~...
                                                         "        "
                                                                                                                                                :: ,·,l·:       ') .':,.:. ;!
                                                                                                                                                       /;.. .   ~




(

                                                                                       CORPORA'l'ION
                                                       NATIONAL UAILIWAU .l'ASSENGER NllRAL
                                                            OF FIC E 011 THE JNSPECTOU GE
                                                                            OIIFlCE OF lNVES'l'lGATlONS
                                                                          INW ST lGA TlV E CLOSING REl'O
                                                                                                        RT

                                                                                                                 CASE NUMDER:         U'/-082
                                'nT Llt. Froud
                                                                                          April 15,:1.008   lk ,/~       .
                                DATROFREPORT,
                                REPOn:l' PREPARED DYI_iii_
                                                           ,,~N                                              _ _ _ SA
                                                                              lMENDATI                         01'!S
                                X.                FlNDINGS OF Me T AND IWCOlV

                                A. .              F1NDANf~1!                    FACT
                                                                                                ment Card ("P·Cnrd") RCcolloiliatlon
                                          1.           During an "n.lysl~ of AnltT~k Procure                    Offiee of J',,'ostigatiOl1S
                                                       xecords, the Office of
                                                         "Ol"    found indicia (hnt

                                                       ~
                                                                                                                         T
                                                                          , mny Itave falsified a supportfiiiJ dOllUmieiI indicated (lInt
                                                                                                                      also
                                                       purchase 0 R Q Gas Grill nlld
                                                                                                    to make purohnses of matctinls for
                                                       • • • • ruay have utili7.ed his P-Card
                                                       personal use.
                                                                                                                               US items dlill
                                           2.           OJ reviewed              's P-Card purchases u.ld. fOll nd Jl\U\\Ql'O
                                                                                                    onal use, suell as  poo  l  supplies and
                                                        apl'""red to have been plll'chased for pers pf.~ from ETrax, OJ obtained
                                                                                                   ree0i
                                                        tax preparallon software. Using tbe
                                                                                          I'urchose  s from lIle VClldol's from whom the
                                                        descriptive information for these
                                                        putochnaos were mado.
                                                                                                                                 s purchases
                                           3.           At interview,             admitted to or that he hadlUac\e numerourecover Ihe
                                                                                                      agreed to o.llow OJ to
                                                        for Ius personnl usc lvilh his P·Card alld 3              his supery)sol' _
                                                        ]lroperty from               OJ wen  t with
                                                                                                              nllci    State Pollce, to his
                                                                      :               ,                                              Identified
                                                                    recovered                                (31) item.~.
                                                        110lUe and                                                                 roximately
                                                        03 "dV ing pure"n"cd with
                                                                                       his P-Card, whIch wore vulued Ht app
                                                        $2,104.
                                                                                                         ''gemont 0)\ August 3D, 2007. And
                                            4.          OI iss lied all Ad11llnJstralive Repo.1 10 """' tember 'I, 2007.
                                                                                                     Sep
                                                        • • • • reslgned his elll)lloymcHt 011
                                                                                                                                              7.
                                                        or rnfcltcd this matter to I h         . _ StaW Pollee Oil September 27, 200
                                             5.                                                      WiUl two CO'\lOts    of  Fraud   Use  of  a
                                                        _ w a s subsequently oharged Em                  bculcmenl    uy  all Ago nt  of Tnls l'.
                                                        ~ev!ce, ond two counts oj:'
                                                                      pleaded guilly 10  Olle count of Etnb   ezzlemen( by an Agent of Trust
                                                                                                      l'ict Conrt In the Stllto of.~.
                                                        _
                                                        ~er 13, 2007 h.1 tbo fifth Di.t 17, 2007 to two years of court
                                                                       WA~ sentenced on DeCember
                                                                           ord .",d to p~y reslitution to Amtrak
                                                        .• Uj,orvl.5ioll olld
                                                                                                                    in the ~~'(jO;;~~''''         ':
                                                                                                                         L~~ __.JJ-..:D ' .
                                                                                                                             '.   .      ----
                                                                                   cKPage 1 of2
                                     E:\my doc\ll'I\cnts\07-082 closin/,l rcport,do
        04/ 15/ 200 8        10: 52      213 891 355 7                        LOS I\I,GELES OIG                             PAGE 031 03
         Ar~ 10 09 08 .10 .                                                                                                   f) • ~)



    (


                             6.       Amtrak received
                                      2008.
                                                         _·s          fo,tltulion p~Yl)ICnt of :1\2.222 Oil Feb)'uat
                                                                                                                    y 21,


                        B.         RECQjlWEW)AUQNS
                                                                                     rol'd.t" MtiOns take,;.
                              I.      . Close case. ~lelglll1'm substantiated nnd app

                        ChlefInspector:'_ _-I

                        Deputy Inspector (Jene)'aVcoUllsel:.__ __
                                                                           .-'/L..<~q.-A,'l4:----I,l,~h~L~~~=u:.




(
                                                                                                                                          !
                         E:\my dO~\lments\07.082 closing rOl.'Oi1.docK
                                                                      Page       2 Qf2
